LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 27, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-443: UNITED STATES V. DZHOKHAR A. TSARNAEV
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Professor Michael J.Z. Mannheimer referenced above contains 7,085 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 27th day of August 2021.

